Audit Report “Information Assurance Controls on [a Center’s Networked] Systems Need
Strengthening” (IG-06-004, March 21, 2006)

The NASA Office of Inspector General conducted an audit to determine whether NASA
had established adequate controls to provide reasonable assurance of security on
information technology (IT) systems supporting [a Center’s projects]. The final audit
report is not generally available because it contains sensitive security-related information.

We found that [the Center] had implemented fundamental IT security controls on systems
supporting its [networked] projects; however, additional controls were needed to
strengthen the security of those systems. Weak IT security controls increased the risk of
compromise to [the Center’s networked] systems and data. We did not identify any
actual system compromises or quantify the extent of risk associated with these control
weaknesses.

We made six recommendations to [Center] management to improve the security of its
[networked] systems. Management concurred with all of the report’s recommendations and
provided information on corrective actions planned or taken in response to those
recommendations. Management’s planned and completed corrective actions were responsive
to our recommendations.

The report contains NASA Information Technology/Internal Systems Data that is not
routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
